APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum Opinion in the United
States Court of Appeals for the Ninth
Circuit
(November 21, 2019) . . . . . . . . . . . App. 1
Appendix B Memorandum Decision and Order
with Judgment in the United States
District Court for the District of Idaho
(May 23, 2018). . . . . . . . . . . . . . . . App. 7
Appendix C Findings of Fact & Conclusions of Law
& Order in the United States District
Court for the District of Idaho
(January 4, 2018) . . . . . . . . . . . . App. 18
Appendix D Memorandum Decision and Order in
the United States District Court for
the District of Idaho
(May 8, 2017). . . . . . . . . . . . . . . . App. 31
Appendix E Memorandum Decision and Order in
the United States District Court for
the District of Idaho
(August 2, 2016) . . . . . . . . . . . . . App. 38
Appendix F Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Ninth
Circuit
(January 8, 2020) . . . . . . . . . . . . App. 53

ii
Appendix G 46 U.S.C. § 10601 . . . . . . . . . . . . App. 55
Appendix H 46 U.S.C. § 11107 . . . . . . . . . . . . App. 56

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35485
D.C. No. 1:15-cv-00479-BLW
[Filed November 21, 2019]
_____________________________
ELI DUNN,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
BRYCE HATCH; et al.,
)
)
Defendants-Appellees.
)
_____________________________ )
No. 18-35511
D.C. No. 1:15-cv-00479-BLW
_____________________________
ELI DUNN; COLIN ALLEN,
)
)
Plaintiffs-Appellees,
)
)
v.
)
)
BRYCE HATCH; HATCH
)

App. 2
MARINE ENTERPRISE, LLC, )
in personam,
)
)
Defendants-Appellants. )
_____________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the District of Idaho
B. Lynn Winmill, District Judge, Presiding
Submitted August 27, 2019**
Seattle, Washington
Before: McKEOWN and BYBEE, Circuit Judges, and
GAITAN,*** District Judge.
Eli Dunn appeals the district court’s judgment after
a one-day bench trial in his action under maritime law
to recover wages due for working as a deckhand on the
F/V Silver Bullet, a salmon fishing boat operated by
Bryce Hatch and Hatch Marine Enterprise, LLC
(“Hatch Marine”). Hatch and Hatch Marine crossappeal.

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

***

The Honorable Fernando J. Gaitan, Jr., United States District
Judge for the Western District of Missouri, sitting by designation.

App. 3
The district court concluded that Dunn, who had an
oral contract, was entitled to an additional $1,905.45 in
wages under 46 U.S.C. §§ 10601 and 11107. The
district court also awarded Dunn costs and attorneys’
fees as a sanction against Hatch and Hatch Marine for
forgery of a written employment contract and failure to
fully comply with discovery. Dunn asserts the district
court erred in denying (1) punitive damages under
general maritime law and for Hatch’s forgery of a
written contract, and (2) attorneys’ fees for the entire
case. In their cross-appeal, Hatch and Hatch Marine
argue the district court erred in (1) awarding Dunn
partial attorneys’ fees and costs as a sanction, and
(2) miscalculating the wages due to Dunn. We affirm.
1. Citing Atlantic Sounding Co., Inc. v. Townsend,
557 U.S. 404, 424 (2009), Dunn argues punitive
damages should have been awarded to him under
general maritime law and for Hatch’s forgery. The
district court, however, held that 46 U.S.C. § 11107
provides the exclusive penalty for fishermen who had
not been paid their full wages in the absence of a
written contract and thus denied punitive damages
under general maritime law. This conclusion is
supported by the Supreme Court’s recent decision in
The Dutra Group v. Batterton, 139 S.Ct. 2275 (2019), in
which the Court held that punitive damages cannot be
recovered on claims in admiralty where there is no
historical basis for allowing such damages. Id. at 2278
(further finding that courts should depart from those
policies found in detailed statutory schemes
cautiously). Plaintiff has presented no evidence of a
historical basis for allowing punitive damages in
maritime wage disputes. Thus, we believe the same

App. 4
analysis would preclude punitive damages under
Sections 10601 and 11107.
Moreover, even if punitive damages were available
to Dunn under Sections 10601 and 11107, such
damages are limited to cases of “enormity, where a
defendant’s conduct is outrageous, owing to gross
negligence, willful, wanton, and reckless indifference
for the rights of others, or behavior even more
deplorable.” Exxon Shipping Co. v. Baker, 554 U.S. 471,
493 (2008) (internal citations and quotation marks
omitted). In Dunn’s case, the underlying facts do not
support a claim that Hatch’s conduct demonstrated a
case of enormity or deplorable behavior. Instead, the
mere statutory violation of having an oral contract
rather than a written contract does not constitute
“reckless indifference for the rights of others.” Id.
The forgery claims were dismissed by the district
court and that finding was not appealed by Dunn. We
are aware of no authority supporting an award of
punitive damages for dismissed claims. The district
court did not err in determining that punitive damages
were not available to Dunn.
2. Dunn requested an award of attorneys’ fees for
the entire case. The district court limited its award to
fees and costs related to sanctionable behavior by
Hatch and Hatch Marine. Attorneys’ fees are not
awarded as a matter of course in admiralty claims;
instead, they are awarded, if at all, “when the
shipowner acted arbitrarily, recalcitrantly, or
unreasonably.” Madeja v. Olympic Packers, LLC, 310
F.3d 628, 635 (9th Cir. 2002). Grants or denials of
attorneys’ fees are reviewed for abuse of discretion. See

App. 5
Rodriguez v. W. Publ’g Corp., 563 F.3d 948, 967 (9th
Cir. 2009). The district court’s order limiting attorneys’
fees to those issues where Hatch and Hatch Marine
acted in bad faith is not an abuse of discretion.
3. Hatch and Hatch Marine argue the district court
erred in awarding Dunn partial attorneys’ fees and
costs as a sanction. The district court found that Hatch
and Hatch Marine used a forged document to support
their claim that there had been a written contract.
Defendants’ use of this forged document resulted in
higher costs and attorneys’ fees for Dunn. Accordingly,
the district court did not abuse its discretion in
awarding attorneys’ fees and costs related to use of
that document. Similarly, the district court did not err
in imposing discovery sanctions for failure to identify
the total amount of profit-sharing/price adjustment
during discovery, because Hatch and Hatch Marine
ought to have identified the total amount of the profitsharing/price adjustment in their response to
interrogatories. A district court’s grant of discovery
sanctions is reviewed for abuse of discretion. See
Facebook, Inc. v. Power Ventures, Inc., 844 F.3d 1058,
1070 (9th Cir. 2016). Here, the district court did not
abuse its discretion.
4. Hatch and Hatch Marine argue that the district
court miscalculated the wages due to Dunn, concluding
that the district court simply added 10% of $19,054.53
to the payments already made to Dunn, without
making any offset for costs and money allegedly
overpaid to Dunn. Findings of fact are reviewed for
clear error. See Crowley Marine Servs., Inc. v.
Maritrans, Inc., 530 F.3d 1169, 1173 (9th Cir. 2008).

App. 6
We find no clear error with the district court’s
calculations of the wages due, given the evidence
presented to the court below.1
AFFIRMED.

1

Dunn’s Motion to Supplement the Record on Appeal (No. 1835511 Dkt. 6, No. 18-35485 Dkt. 12) is denied as moot.

App. 7

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:15-cv-479-BLW
[Filed May 23, 2018]
________________________________
ELI DUNN and COLIN ALLEN, )
)
Plaintiffs,
)
)
v.
)
)
BRYCE HATCH and HATCH
)
MARINE ENTERPRISE, LLC,
)
in personam; the F/V SILVER
)
BULLET, Official Number
)
991159, her engines, machinery, )
appurtenances and cargo, in rem; )
)
Defendants
)
________________________________ )
MEMORANDUM DECISION AND ORDER
INTRODUCTION
The Court has before it plaintiff Dunn’s request for
attorney fees as a sanction for the conduct of defendant
Hatch. For the reasons expressed below, the Court will
award $5,025.25 in fees for Hatch’s forgery of the
employment contract, and an additional $5,000 in fees

App. 8
for Hatch’s failure to reveal in discovery the payment
adjustment figure. The Court will explain these
conclusions after reviewing the background of this
litigation.
LITIGATION BACKGROUND
Plaintiff Dunn brought this lawsuit to recover
wages due him from shipowner Hatch for the 2013
salmon season in Bristol Bay, Alaska. In a prior
decision, the Court held that Hatch forged Dunn’s
signature on an employment contract, intentionally
filed it with the Court, represented in at least two court
filings that Dunn signed the contract, and procured two
additional persons to lie, vouching for the authenticity
of Dunn’s forged signature. See Memorandum Decision
(Dkt. No. 110). The Court held that this willful conduct
satisfied the high threshold for finding that Hatch
acted in bad faith, and warranted an award of
sanctions. That award, the Court held, would consist of
the following items: (1) The costs of the handwriting
expert Hannah McFarland – that is, her fees for
drafting her expert report and attending the
deposition; and (2) The time Dunn’s attorney spent in
preparing for and taking the deposition of McFarland
and in otherwise addressing the issue of the contract
forgery. Id. at p. 11.
In that decision, the Court also stated that “[i]f
plaintiffs’ counsel believes he is entitled to attorney
fees generally, he shall file his motion within the same
time frame, thirty days. The Court expresses no
opinion whether plaintiffs are entitled to costs and
attorney fees generally and, if so, whether those fees

App. 9
should be supplemental, or in addition, to the costs and
fees awarded as sanctions.” Id.
Dunn has now responded with two filings. In the
first, he details the fees and costs incurred in revealing
the forgery. In the second – a motion for attorney fees
generally – he seeks all the attorney fees his attorney
incurred in this case. The Court will take up first the
questions of the fees and costs for the forgery.
ATTORNEY FEES FOR FORGERY
Dunn’s counsel submits his accounting showing the
following: (1) the costs for the handwriting expert were
$2,280.25; and (2) Dunn’s counsel spent 6.1 hours on
this issue at a rate of $450 an hour. Adding these
amounts results in a sum of $5,025.25. See Declaration
of Merriam (Dkt. No. 111).
Hatch argues that the rate of $450 is too high, and
cites lower hourly rates in the Boise Idaho market. But
Dunn’s counsel practices in a specialized field in
Seattle Washington, has done so for the past 36 years,
and is a past chairman of the Maritime Section of the
Washington State Trial Lawyers Association. The
Court finds his hourly rate reasonable.
Hatch responds by speculating that Dunn had a
contingent fee arrangement with his counsel, making
it unlikely that Dunn “incurred” any fees. But Hatch
cites no authority holding that fees cannot be awarded
based on a finding of bad faith conduct in litigation
whenever the victim has a contingency fee
arrangement. Adopting Hatch’s rule would promote
bad faith conduct in contingency cases, an absurd
result.

App. 10
Hatch complains about that the number of hours
spent by Dunn’s counsel, but the 6.1 hours seems quite
conservative given the importance of the issue in the
litigation and the burden of proving a signature was
forged. The Court cannot find the total hours
unreasonable.
For these reasons, the Court will award $5,025.25
in attorney fees and costs for Hatch’s conduct in forging
the employment contract.
MOTION FOR ATTORNEY FEES GENERALLY
Legal Standard
An award of attorney’s fees is appropriate in
admiralty only when the shipowner acted arbitrarily,
recalcitrantly, or unreasonably. Madeja v. Olympic
Packers, LLC, 310 F.3d 628, 635 (2002). The district
courts have discretion to award “punitive attorney fees”
when shipowners are “intentionally dishonest or
recalcitrant during the course of litigation.” Id. at 636.
Analysis
Dunn argues that Hatch avoided service of process,
went to “incredible” lengths to avoid paying Dunn’s
wages, and filed a “blizzard of motions” to harass
Dunn. See Brief (Dkt. No. 112-1) at p. 4. Regarding the
service of process, the Judge who transferred this case
here from the Western District of Washington – Chief
Judge Donohue – denied Dunn’s request to impose on
Hatch the expense of service of process. See Order (Dkt.
No. 30). Chief Judge Donohue found that (1) Dunn’s
counsel failed to comply with the Rules regarding
service; and (2) counsel’s failure contributed to the

App. 11
expenses that Dunn sought to recover. Id. Hatch may
have avoided the service of process but Dunn’s counsel
made his own missteps – it looks like a wash for
attorney fee purposes.
The Court will turn next to Dunn’s allegation that
Hatch’s counsel Kim Trout filed a “blizzard” of
harassing motions. A review of the arguments
advanced in those motions shows that they were
largely an attempt to apply strictly the Federal Rules
of Civil Procedure, an entirely legitimate line of attack.
Indeed, the motions were triggered by the failure of
Dunn’s counsel to follow the Rules: At one point the
Court observed that although it would deny the
motions, it was “certainly troubled by the failure of
plaintiffs’ counsel to follow the Rules.” See
Memorandum Decision (Dkt. No. 102) at p. 3. Here
again, the Court can find no basis for an award of
attorney fees.
This case was intensely contested, but that was due
at least in part to Dunn’s claim for punitive damages.
That claim was in the case from 2014 until the Court
struck the claim in 2016, and it was one factor that led
to intense litigation over an otherwise small claim for
unpaid wages.
Thus, much of the defense could be called zealous
advocacy; nevertheless, part of it did cross the line into
obstructionism. During the period of discovery, Dunn
propounded interrogatories to Hatch asking for the
“gross revenues” in 2013 and 2014. Hatch responded on
February 5, 2016, by referring to a certain settlement
sheet from the buyer of the salmon catch, Leader Creek
Fisheries. That settlement sheet showed that Leader

App. 12
Creek paid Hatch $184,274.52. See Answers to
Interrogatories (Dkt. No. 78-2).
That response was highly misleading. Hatch knew
when he answered those interrogatories (on February
5, 2016) that almost two years earlier (in April of 2014)
Leader Creek had paid Hatch an additional sum of
$19,504.53.1 See Exhibit B to Miller Declaration (Dkt.
No. 78-2). Dunn’s interrogatories had asked for Hatch’s
gross revenues in 2013 and 2014, and the $19,504.53
was clearly a revenue that Hatch knew about when he
answered those interrogatories but failed to reveal.
This was no small matter. From the very beginning
of this lawsuit in 2014, Dunn was trying to uncover the
fact and amount of that payment, despite Hatch’s
continual denials that it existed. So, Hatch’s failure to
reveal the extra payment in response to the
interrogatory can only be characterized as a bad faith
attempt to obstruct discovery.
Hatch had a chance to redeem himself. After he
filed his misleading response, about a month remained
in the discovery process for him to file a supplemental
response revealing the payment. He failed to take
advantage of that opportunity.
Instead, Hatch doubled down on his deception. He
filed a motion for summary judgment alleging that the
record showed no price adjustment. See Motion for
Summary Judgment Brief (Dkt. No. 50). Dunn,
skeptical of Hatch’s discovery responses, filed a
1

Leader Creek paid a total of $19,504.53 in two payments; one in
December of 2013 and the other in April of 2014.

App. 13
subpoena on Leader Creek for the final settlement
sheet, and asked the Court for an extension of time to
respond to Hatch’s motion for summary judgment. The
Court granted that request for an extension.
In August of 2016, Leader Creek responded to
Dunn’s subpoena and produced the accurate settlement
sheet showing the $19,504.53 extra payment. See
Notice Filed by Plaintiffs (Dkt. No. 66). Thus, the
$19,504.53 sum was finally revealed through Dunn’s
own digging, not with any help from Hatch.
Hatch acted in bad faith to hide the $19,504.53
payment from Dunn during discovery. His conduct was
dishonest and recalcitrant. Under the authorities cited
above, that conduct warrants an award of attorney
fees.
The issue is the scope of those fees. While Dunn
wants an award of all his fees for pursuing this
lawsuit, the Court cannot find that Hatch’s dishonesty
affected every aspect of this case. As discussed above,
Hatch often made legitimate arguments and pursued
a vigorous defense, while Dunn’s counsel at times failed
to follow the Rules and caused his own harm. But in
two significant areas, Hatch’s dishonesty and bad faith
resulted in direct harm to Dunn: Hatch forged the
employment contract and he hid the payment
adjustment from Leader Creek. For the former, the
Court has already awarded $5,025.25. The latter
warrants a similar award because the harm caused,
and the effort necessary to uncover the truth, were
comparable. Thus, an award of $5,000 in attorney fees
is appropriate for hiding the payment adjustment in
discovery.

App. 14
CONCLUSION
Following up on the Court’s prior award of attorney
fees for the forged contract, the Court will award
plaintiff from defendant the sum of $5,025.25. In
addition, the Court will grant in part and deny in part
Dunn’s motion for attorney fees generally. The Court
will award $5,000 in attorney fees for Hatch’s bad faith
and dishonesty in failing to reveal the payment
adjustment of $19,504.53 in response to discovery
requests. The motion will be denied to the extent it
seeks an award of all the attorney fees incurred by
plaintiff for this entire case.
The Court will therefore issue a separate judgment,
as required by Rule 58(a), in the total sum of
$10,025.25, representing the attorney fees awarded to
plaintiff from defendant.
ORDER
In accordance with the Memorandum Decision set
forth above,
NOW THEREFORE IT IS HEREBY ORDERED,
that the plaintiff receive from defendant the sum of
$5,025.25 as attorney fees and costs as a sanction for
the bad faith conduct of defendant in submitting a
forgery to the Court.
IT IS FURTHER ORDERED, that the motion for
attorney fees generally (docket no. 112) be GRANTED
IN PART AND DENIED IN PART. It is granted to the
extent it seeks $5,000 in attorney fees as a sanction for
the bad faith conduct in hiding during discovery a sum
of money received. It is denied in all other respects.

App. 15
DATED: May 23, 2018
[SEAL]

/s/B. Lynn Winmill
B. Lynn Winmill
Chief U.S. District Court Judge

App. 16
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:15-cv-479-BLW
[Filed May 23, 2018]
________________________________
ELI DUNN and COLIN ALLEN, )
)
Plaintiffs,
)
)
v.
)
)
BRYCE HATCH and HATCH
)
MARINE ENTERPRISE, LLC,
)
in personam; the F/V SILVER
)
BULLET, Official Number
)
991159, her engines, machinery, )
appurtenances and cargo, in rem; )
)
Defendants
)
________________________________ )
JUDGMENT
In accordance with the Memorandum Decision set
forth above,
NOW THEREFORE IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED, that the plaintiff
receive from defendant the sum of $5,025.25 as
attorney fees and costs as a sanction for the bad faith
conduct of defendant in submitting a forgery to the
Court.

App. 17
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED, that the motion for attorney fees generally
(docket no. 112) be GRANTED IN PART AND DENIED
IN PART. It is granted to the extent it seeks $5,000 in
attorney fees as a sanction for the bad faith conduct in
hiding during discovery a sum of money received. It is
denied in all other respects. The Clerk shall close this
case.
DATED: May 23, 2018
[SEAL]

/s/B. Lynn Winmill
B. Lynn Winmill
Chief U.S. District Court Judge

App. 18

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:15-cv-479-BLW
[Filed January 4, 2018]
________________________________
ELI DUNN and COLIN ALLEN, )
)
Plaintiffs,
)
)
v.
)
)
BRYCE HATCH and HATCH
)
MARINE ENTERPRISE, LLC,
)
in personam; the F/V SILVER
)
BULLET, Official Number
)
991159, her engines, machinery, )
appurtenances and cargo, in rem; )
)
Defendants
)
________________________________ )
FINDINGS OF FACT & CONCLUSIONS
OF LAW & ORDER
INTRODUCTION
Plaintiffs Dunn and Allen brought this action to
recover wages due to them for working as deckhands on
a fishing boat operated by defendant Hatch. The Court
held a bench trial on November 13, 2017, and

App. 19
requested further briefing that was received on
December 7, 2017. The matter is now at issue. For the
reasons set forth below, the Court will award plaintiff
Dunn the sum of $1,905.45 and sanctions as set forth
below, and will dismiss the claims of plaintiff Allen.
FINDINGS OF FACT
Plaintiff Dunn
Plaintiff Dunn was employed by defendant Hatch as
a deckhand aboard the F/V Silver Bullet for the 2013
Bristol Bay (Alaska) salmon season during the months
of June and July. He was verbally promised a wage
equal to 10% of the value of the catch minus certain
expenses.
The Silver Bullet completed its fishing operations in
early July of 2013, and Hatch sold all those fish to
Leader Creek Fisheries, receiving a payment of
$184,274.52 based on the market price for salmon at
that time. To calculate Dunn’s wage, Hatch started
with a figure equal to 10% of $184,274.52, and then
deducted the agreed-upon expenses, ultimately paying
Dunn $14,946.73.
At the end of each year, Leader Creek Fisheries
calculates its profits and pays boat owners a share of
those profits as an incentive to keep them as suppliers.
The profit sharing sum is distributed by increasing the
price-per-pound paid for the Red Salmon. For the 2013
season, Leader Creek Fisheries increased the price per
pound paid to Hatch by 18 ½ cents, and made two
profit-sharing payments to Hatch – one in late
December 2013, and the other on April 1, 2014. Those
two payments totaled $19,054.53.

App. 20
This payment was described by plaintiffs as a “price
adjustment” and by the defendants as “profit-sharing.”
Actually, it was both: Profits were shared by adjusting
the price. But the label is unimportant because the
testimony was consistent that this money was often
shared with deckhands, if they were returning for the
next fishing season, making it part of the “highest wage
in the port,” a finding that will be explained in the
Conclusions of Law section of this decision.
For example, Dunn testified that he had been a
deckhand on Bristol Bay fishing boats for one season
prior to the 2013 season, and that it was commonly
understood that the 10% wage due experienced
deckhands like himself would include the final priceadjusted payments that were typically made in
December and April, whether called price adjustments
or profit sharing. Steve Kurian, a fishing boat owner
who has operated for many years in Bristol Bay,
testified that he paid his experienced deckhands a 10%
wage, and that he shared Leader Creek’s profit-sharing
payment in 2013 with his crew members who agreed to
return the next year.
Therefore, the highest wage in the Bristol Bay port
was equal to 10% of the value of the catch, including
the profit-sharing/price adjustment payment received
in December and April. The Leader Creek profit
sharing/ price adjustment payment to Hatch for the
fish sold from the Silver Bullet for the 2013 salmon
season was $19,054.53. Ten percent of $19,054.53 is
$1,905.45.

App. 21
Plaintiff Allen
Plaintiff Allen did not attend the trial, and no
testimony was elicited from him either by video or
through a trial deposition. Consequently, defendant
Hatch had no opportunity to cross-examine Allen
regarding the allegations he made in pre-trial
submissions, such as the complaint and affidavits.
Allen’s counsel asks the Court to take judicial notice
of Allen’s pre-trial filings in this case that, he argues,
establish Allen’s right to a wage equal to 10% of the
catch as an experienced deckhand. But throughout this
case, Hatch has disputed Allen’s claims, and argued
that Allen was not experienced and worked only as a
“bleeder,” meaning that his wage would be lower than
even the 5% allowed to inexperienced deckhands.
Hatch claims to have paid that smaller wage in full in
July of 2013.
If the Court were to take judicial notice of Allen’s
allegations, fairness would require taking judicial
notice of Hatch’s contrary allegations – the resulting
stalemate would do nothing to advance Allen’s case.
But more importantly, making any factual findings in
favor of Allen – and ignoring the fact that he skipped
trial and avoided cross-examination – would be
fundamentally unfair to Hatch. Moreover, judicial
notice is only allowed for facts “not subject to
reasonable dispute,” and that condition does not apply
to the disputed duties performed by Allen on board the
ship. See Rule of Evidence 201(b).
Allen’s counsel argues that Dunn’s testimony at
trial established that Allen had the experience

App. 22
necessary to be considered an experienced deckhand
and be entitled to the 10% wage. But once again it
would be entirely unjust to allow Dunn to be a
surrogate for Allen and deprive Hatch of his right of
cross-examination.
Finally, on the eve of trial, Allen’s counsel moved for
a partial summary judgment that Allen be entitled to
a 5% wage based on an affidavit of Steve Kurian
submitted by the defense about 19 months earlier. See
Kurian Affidavit (stating that as a boat owner he paid
inexperienced crew members a wage equal to 5% of the
value of the catch). Allen’s motion was filed more than
a year after the deadline for dispositive motions and
should be rejected for that reason alone. But as
discussed above, the dispute over Allen’s duties
precludes any summary judgment on this issue, and
requires that Allen attend trial and be subject to crossexamination.
For all the reasons stated above, the Court cannot
make any factual findings relating to plaintiff Allen.
Accordingly, his claims must be dismissed.
CONCLUSIONS OF LAW
A seaman who is cheated on his wages has three
options. If his contract was not in writing, he can
obtain his wages and, in some instances an additional

App. 23
sum, pursuant to 46 U.S.C. §§ 106011 and 11107.2 If his
contract was in writing, he has two options. First, he
can proceed in rem, to obtain a lien against – and
ultimately sell – the vessel as provided in 46 U.S.C.
§ 10602(a)3, or he can proceed in personam against his
employer under § 10602(c)4 and receive damages under
general maritime law.
Dunn had only an oral contract. His remedy is
therefore set by §§ 10601 & 11107. To protect seamen,
Congress declared under § 10601 that all contracts for
hire must be in writing. To add teeth to this
requirement, Congress declared in § 11107 that an oral
contract is void, allowing a seaman to quit at any time
and still be able to “recover the highest rate of wages at
the port from which the seaman was engaged or the
1

Section 10601 states in part as follows: “Before proceeding on a
voyage, the owner . . . of a fishing vessel . . . shall make a fishing
agreement in writing with each seaman employed on board.”

2

Section 11107 states in part as follows: “An engagement of a
seaman contrary to a law of the United States is void. A seaman so
engaged may leave the service of the vessel at any time and is
entitled to recover the highest rate of wages at the port from which
the seaman was engaged or the amount agreed to be given the
seaman at the time of engagement, whichever is higher.”

3

Section 10602(a) states in part as follows: “When fish caught
under an agreement under section 10601 . . . are . . . sold, the
vessel is liable in rem for the wages and shares of the proceeds of
the seamen. An action under this section must be brought within
six months after the sale of the fish.”

4

Section 10602(c) states as follows: “This section does not affect a
common law right of a seaman to bring an action to recover the
seaman’s share of the fish or proceeds.”

App. 24
amount agreed to be given the seaman at the time of
engagement, whichever is higher.” In other words,
these statutes were designed to penalize ship owners
who failed to offer written contracts for hire. See
Seattle-First Nat. Bank v. Conway, 98 F. 3d 1195, 1198
(9th Cir. 1996) (agreeing that “§ 11107 provides a
penalty against vessel owners who employ seamen
without written agreements in violation of § 10601”)
(emphasis added). The Ninth Circuit has interpreted
those statutes to award to a seaman with an oral
contract “either the wages he orally agreed to, or the
highest rate of wages that could be earned by a seaman
at the port of hire who has the same rating as the
complainant.” TCW Special Credits v. Chloe Z Fishing
Co., Inc., 129 F.3d 1330, 1333 (9th Cir. 1997).
Dunn was rated as an experienced deckhand. As
discussed above, the highest wage in the Bristol Bay
port for an experienced deckhand was equal to 10% of
the catch, including the profit-sharing/price adjustment
payment received in December and April. It is true that
the testimony established that the profit-sharing
money is only shared with crew members who agree to
return the next season, and Dunn did not agree to
return. But § 11107 imposes a penalty equal to the
highest wage in the port for a seaman of Dunn’s rating,
and says nothing about eliminating that penalty to
comply with various conditions that ship captains
impose at their whim. Applying such conditions would
emasculate the statutory penalty and ignore the rule
that “legislation for the benefit of seamen is to be
construed liberally in their favor.” McMahon v. U.S.,
342 U.S. 25, 27, (1951).

App. 25
The Court therefore finds that plaintiff Dunn is
entitled to an additional $1,905.45 (10% of $19,054.53).
Hatch’s Motion for Judgment
After plaintiffs’ case-in-chief, Hatch moved for
judgment under Rule 52(c), arguing that plaintiffs
failed to prove the elements of their case. The Court
will grant the motion regarding plaintiff Allen, for the
reasons stated above.
Regarding plaintiff Dunn, plaintiffs’ counsel failed
to call any witness at trial to establish the amount of
the profit sharing/price adjustment paid by Leader
Creek. But Hatch had earlier filed – in this case – the
affidavit of David Miller, the General Manager of
Leader Creek, showing that the sum was $19,054.53.
See Miller Affidavit (Dkt. No. 78-2)(Exhibits A & B).
Hatch filed that affidavit in support of his motion for
summary judgment.
While the parties argued over whether the Court
could take judicial notice of the Miller Affidavit, the
real issue is whether the facts contained in the
affidavit, submitted by Hatch in support of his motion,
are deemed admitted by Hatch. They are. Factual
assertions in pleadings are considered judicial
admissions conclusively binding on the party who made
them. See American Title Ins. v. Lacelaw Corp., 861
F.2d 224, 226 (9th Cir.1988). Because Hatch submitted
proof of the sums paid by Leader Creek – and there
was no dispute over the accuracy of those figures – that
submission was binding on Hatch, and Dunn was not
required to prove those sums separately at trial. The
motion is accordingly denied as to plaintiff Dunn.

App. 26
Litigation Fraud
Dunn alleges that Hatch committed litigation fraud
by submitting a Crew Contract containing Dunn’s
signature that had been forged. Hatch submitted that
Crew Contract as part of a motion to dismiss early in
this case. In his brief accompanying the motion,
counsel stated that “Dunn signed an employment
contract with Hatch Marine,” see Brief (Dkt. No. 16) at
p. 5. In support, the brief cites an attached affidavit of
Hatch. That affidavit had been originally filed in
another case in this District (Hatch v. Dunn, 1:14-CV518-REB), and a copy of that affidavit was attached to
Hatch’s affidavit in this case. Hatch states in the
affidavit that “Dunn signed an employment contract to
work for me, Bryce Hatch, the owner of the Silver
Bullet, for the June 1, 2013, through August 1, 2013,
salmon season.” See Hatch Affidavit (Dkt. No. 16-1) at
¶ 5. Hatch attached a “Crew Contract” to his affidavit
containing a signature of Dunn, and accompanied by
the affidavits of Phillips Hayman and Roy Gartner,
who swore that “Eli Dunn was one of the other
crewmembers who signed crew contracts at this time.”
See Gartner Affidavit (Dkt. No. 16-1) at ¶ 2.
Dunn immediately declared the contract a forgery.
See Response Brief (Dkt. No. 20). Hatch responded not
by admitting the forgery or by forswearing all use of
the Crew Contract but instead by arguing that forgery
cannot form the basis for a civil action. See Reply Brief
(Dkt. No. 23). In April of 2016, Hatch was still arguing
that “Dunn signed an employment contract to work for
me . . . .”, and arguing that forgery cannot form the
basis for a civil action. See Reply Brief (Dkt. No. 58).

App. 27
On August 8, 2016, the Court ruled that submitting
a forged document to the court could constitute
litigation fraud, and could subject the party submitting
the forgery to sanctions by the court. See Sun World,
Inc. v. Olivarria, 144 F.R.D. 384 (E.D. Cal. 1992) (court
awarded sanctions to plaintiff after finding defendant
fabricated documents and gave perjured testimony). At
this point, quite predictably, plaintiffs pursued the
fraud-on-the-court charge, and retained a handwriting
expert, Hannah McFarland, whose deposition was
taken on September 25, 2017. McFarland is certified
with the National Association of Document Examiners
and has been qualified as an expert in document
examination in at least 75 legal proceedings. See
Deposition at p. 7. At trial, the Court admitted the
deposition into evidence.
Dunn testified at trial that he never signed that
contract. In her deposition, McFarland testified that
she compared the signature on the Crew Contract
submitted by Hatch with an earlier contract actually
signed by Dunn, and found that the two signatures
were identical in every aspect, something that would be
“virtually impossible” to do “manually with the hand.”
Id. at p. 14. She concluded that “one or more of the
signatures and initials had to have been artificially
placed on one or both of the documents.” Id. at p. 12. In
other words, forged. There is no contrary evidence in
the record. And the Court can only conclude that
Phillips Hayman and Roy Gartner must have been
lying when they said they saw Dunn sign the Crew
Contract.

App. 28
Hatch argues that the Crew Contract is irrelevant
because he is not relying on it in any way. But this is
not a case where a forged document was filed
unintentionally and could easily be ignored. Hatch
deliberately filed the document, represented in at least
two court filings that Dunn signed it, and filed the false
affidavits of Hayman and Gartner doubling down on
his own lie.
What did Hatch expect Dunn to do, ignore this
fraud? That is simply preposterous. Even if Hatch was
not relying on the Crew Contract for any legal defense,
it was quite predictable and legitimate for Dunn to
expend time and resources to reveal the fraud and
challenge Hatch’s credibility, if for no other reason.
Under its inherent powers, a court may impose
sanctions where a party has “acted in bad faith,
vexatiously, or for oppressive reasons.” Octane Fitness,
LLC v. ICON Health & Fitness, Inc., 134 S.Ct. 1749,
1758 (2014). These powers, however, “must be
exercised with restraint and discretion.” Chambers v.
NASCO, Inc., 501 U.S. 32, 44 (1991). Accordingly, the
bad-faith requirement sets a “high threshold,” Primus
Auto. Fin. Servs., Inc. v. Batarse, 115 F.3d 644, 649
(9th Cir.1997), which may be met by willful
misconduct, or recklessness that is coupled with an
improper purpose. Fink v. Gomez, 239 F.3d 989, 993–94
(9th Cir.2001).
Hatch has had many opportunities to rebut or
explain the charge of forgery, but has not done so.
Based on the discussion above, the Court finds that
Hatch forged Dunn’s signature, intentionally filed it
with the Court, represented in at least two court filings

App. 29
that Dunn signed the contract, and procured two
additional persons to vouch for the authenticity of
Dunn’s forged signature. This willful conduct satisfies
the “high threshold” for finding that Hatch acted in bad
faith, and warrants an award of sanctions.
Therefore, the Court will award to Dunn as
sanctions the following: (1) The costs of the
handwriting expert Hannah McFarland – that is, her
fees for drafting her expert report and her fees for
attending the deposition; and (2) The attorney fees
Dunn incurred for his attorney’s time in preparing for
and taking the deposition of McFarland and in
otherwise addressing the issue of whether Dunn had
signed and employment contract.
Conclusion
Plaintiff Allen’s claims are dismissed. Plaintiff
Dunn is awarded (1) additional wages in the sum of
$1,905.45; (2) The costs of the handwriting expert
Hannah McFarland – that is, her fees for drafting her
expert report and her fees for attending the deposition;
and (3) The attorney fees Dunn incurred for his
attorney’s time in preparing for and taking the
deposition of McFarland, and otherwise addressing the
issue of whether Dunn had signed an employment
contract. Regarding items (2) and (3) on this list,
plaintiffs’ counsel shall submit an affidavit to the Court
within thirty days from this decision detailing the costs
and fees awarded here. If plaintiffs’ counsel believes he
is entitled to attorney fees generally, he shall file his
motion within the same time frame, thirty days. The
Court expresses no opinion whether plaintiffs are
entitled to costs and attorney fees generally and, if so,

App. 30
whether those fees should be supplemental, or in
addition, to the costs and fees awarded as sanctions.
The Court will enter a separate Judgment as
required by Rule 58.
ORDER
In accordance with the Findings of Fact and
Conclusions of Law set forth above,
NOW THEREFORE IT IS HEREBY ORDERED,
that Plaintiff Allen’s claims are dismissed.
IT IS FURTHER ORDERED, that Plaintiff Dunn is
awarded (1) additional wages in the sum of $1,905.45;
(2) The costs of the handwriting expert Hannah
McFarland – that is, her fees for preparing and
drafting her expert report, and her fees for attending
the deposition; and (3) The attorney fees Dunn incurred
for his attorney’s time in preparing for and taking the
deposition of McFarland.
IT IS FURTHER ORDERED, that plaintiffs’ counsel
shall file within thirty days from the date of this
decision (1) any motion for attorney fees, and (2) an
affidavit detailing the amount of costs and fees
awarded here.
DATED: January 4, 2018
[SEAL]

/s/B. Lynn Winmill
B. Lynn Winmill
Chief Judge
United States District Court

App. 31

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:15-cv-00479-BLW
[Filed May 8, 2017]
________________________________
ELI DUNN and COLIN ALLEN, )
)
Plaintiffs
)
)
v.
)
)
BRYCE HATCH, an individual;
)
HATCH MARINE ENTERPRISE, )
LLC, et al,
)
)
Defendants.
)
________________________________ )
MEMORANDUM DECISION AND ORDER
INTRODUCTION
The Court has before it a second motion to dismiss
and strike filed by defendants, Bryce Hatch and Hatch
Marine Enterprise, LLC. The motion is fully briefed
and at issue. For the reasons explained below, the
Court will grant the motion to dismiss the fraud claim
and strike any references to punitive damages and
claims previously dismissed. Remaining are claims for

App. 32
breach of contract, and a potential claim for sanctions
if a forged signature was submitted to the Court.
BACKGROUND
Plaintiffs were employed by defendants as
deckhands aboard the F/V Silver Bullet for the 2013
Bristol Bay (Alaska) salmon season during the months
of June and July. They allege that defendant Hatch
verbally promised them a ten percent share of the
catch.
While the value of the catch is estimated at the time
of the vessel’s return, buyers typically pay more than
the estimate, and the crew is entitled to have this
upward “adjustment” added to the value of the catch
for purposes of computing the ultimate share due each
seaman. The plaintiffs’ original complaint alleged that
Hatch failed to pay them the full amount due by not
including the adjustment in the valuation computation,
by falsifying the value of the catch, and by not
providing an accurate accounting as required by
statute.
Both plaintiffs allege that their agreements were
oral in nature and never reduced to writing. This is
important because maritime law penalizes ship owners
for failing to enter into written contracts by awarding
deck hands enhanced damages when they prove that
they had only an oral contract, and that it was
breached. See 46 U.S.C. § 10601; Seattle-First Nat.
Bank v. Conway, 98 F. 3d 1195, 1198 (9th Cir. 1996)
(holding that maritime law “provides a penalty against
vessel owners who employ seamen without written
agreements in violation of § 10601”).

App. 33
Hatch originally claimed that both plaintiffs had
written contracts, but later conceded that plaintiff
Allen had only an oral agreement. Hatch continues to
allege that plaintiff Dunn has a written agreement,
and proffered a contract to plaintiffs’ counsel with
Dunn’s signature affixed. Dunn counters that his
signature was forged.
To recover their full wages, plaintiffs originally
brought claims for breach of contract and fraud,
seeking recovery for (1) wages equal to the highest
crew-share paid out of the port of engagement;
(2) double wage penalties under state law; (3) punitive
damages under the general maritime law; (4) the sale
of the vessel Silver Bullet to satisfy the wages and
penalties due to plaintiffs; and (5) attorney fees. See
Complaint (Dkt. No. 1).
In an earlier decision, the Court (1) dismissed all
claims against Bryce Hatch individually; (2) dismissed
claims for punitive damages under maritime law – and
wage penalties under state law – sought under a
breach of contract claim brought under § 10601,
§ 11107, and §§ 10602(a), (b) & (c); (3) required
plaintiffs to amend their complaint to allege the fraud
claim with particularity; and (4) granted plaintiffs time
to conduct discovery on whether Hatch concealed the
payment of an adjustment by the buyer and
understated the amount the buyer paid for the catch.
See Memorandum Decision (Dkt. No. 64).
After conducting discovery, plaintiffs claim that
(1) they found evidence that Hatch understated the
amount the buyer paid for the catch; and (2) found no

App. 34
evidence that Hatch concealed the payment of an
adjustment by the buyer. See Notice (Dkt. No. 66).
Plaintiffs have now filed their Amended Complaint,
and Hatch responded by filing a second motion to
dismiss. Hatch seeks to dismiss (1) the fraud claim;
and (2) the allegations in the amended complaint that
continue to allege claims against Bryce Hatch
personally and continue to seek punitive damages for
violation of the statutory wage claims. The motions do
not affect the breach of contract allegations.
ANALYSIS
Fraud
The Amended Complaint contains a single
allegation of fraud. It alleges that Hatch forged
plaintiff Dunn’s signature on a written contract and
“mailed the fraudulently altered contract of
employment to counsel for the plaintiff in an effort to
avoid the consequences of failing to have a written
contract of employment as required by 46 U.S.C.
§ 10601.” See Amended Complaint (Dkt. No. 65) at ¶ 10.
The record contains Hatch’s representation to the
Court that Dunn “signed an employment contract.” See
Hatch Declaration (Dkt. No. 51-2) at ¶ 5; Exhibit C Crew Contract (Dkt. No. 55-4). Dunn responds that
Hatch forged his signature, and that he never signed
that contract. See Dunn Declaration (Dkt. No. 54-1). In
support, Dunn submitted a report by a handwriting
expert concluding that the signature on the written
contract proffered by Hatch was “artificially
reproduced” – essentially copied and pasted from

App. 35
another contract that Dunn actually did sign. See
Report (Dkt. No. 55-3).
Submitting a forged document to a court or to
counsel constitutes litigation fraud, and subjects the
party submitting the forgery to sanctions by the court.
Sun World, Inc. v. Olivarria, 144 F.R.D. 384 (E.D. Cal.
1992) (court awarded sanctions to plaintiff after finding
defendant fabricated documents and gave perjured
testimony). But the forgery does not constitute a cause
of action for fraud under Idaho law because it arose
after the work for which Dunn seeks wages, and Dunn
did not rely on it in any way. Dengler v. Hazel
Blessinger Family Trust, 106 P.3d 449, 453–54 (2005)
(identifying the elements of fraud). Thus, the fraud
claim must be dismissed. The issue of forgery remains,
however, in two respects. First, if Dunn’s written
contract was forged, he had a mere oral contract and is
entitled to enhanced damages under maritime law.
Second, if Dunn’s contract was forged, Hatch and/or
defense counsel will be subjected to substantial
sanctions. Thus, while the dismissal of the fraud claim
takes away plaintiffs’ last opportunity to collect
punitive damages, the forgery issue remains alive in
the case and, if proven, would result in enhanced
damages and sanctions.
For these reasons the Court will dismiss the fraud
claim set forth in paragraph 10 of the Amended
Complaint.
Dismissed Claims
The Amended Complaint carries forward claims
dismissed by the Court in its earlier decision, and it

App. 36
refers to punitive damages in several paragraphs
although no claim remains that could support an award
of punitive damages. Therefore, the Court will order
stricken (1) the reference to personal liability of
defendant Bryce Hatch in ¶ 2; and (2) the reference to
punitive damages in ¶ 4, 5 & 8
Conclusion
The Court will (1) grant the motion to dismiss the
fraud claim set forth in paragraph 10 of the Amended
Complaint; (2) strike the reference to personal liability
of defendant Bryce Hatch in ¶ 2; and (2) strike the
reference to punitive damages in ¶ 4, 5 & 8. The breach
of contract claims remain, and the issue regarding the
forged signature remains as discussed above.
The deadline for dispositive motions and discovery
have past, and it appears to the Court that this case is
ready for trial on all remaining issues. The Court will
order the Clerk to send out a notice of trial setting
telephone conference.
ORDER
In accordance with the Memorandum Decision
above,
NOW THEREFORE IT IS HEREBY ORDERED,
that the motion to dismiss and to strike (docket no. 67)
is GRANTED and that (1) the fraud claim contained in
paragraph 10 of the Amended Complaint (docket no.
65) is stricken; (2) the reference to personal liability of
defendant Bryce Hatch in ¶ 2 is stricken; and (3) the
reference to punitive damages in ¶¶ 4, 5 & 8 is
stricken.

App. 37
IT IS FURTHER ORDERED, that the Clerk shall
send out a notice of trial setting telephone conference.
DATED: May 8, 2017
DATED: May 8, 2017
[SEAL]

/s/B. Lynn Winmill
B. Lynn Winmill
Chief Judge
United States District Court

App. 38

APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:15-cv-00479-BLW
[Filed August 2, 2016]
________________________________
ELI DUNN and COLIN ALLEN, )
)
Plaintiffs
)
)
v.
)
)
BRYCE HATCH, an individual;
)
HATCH MARINE ENTERPRISE, )
LLC, et al,
)
)
Defendants.
)
________________________________ )
INTRODUCTION
The Court has before it (1) motions to dismiss, for
summary judgment, and to strike filed by defendants,
Bryce Hatch and Hatch Marine Enterprise, LLC, and
(2) a motion for additional discovery filed by plaintiffs
Dunn and Allen. The Court held oral argument on June
16, 2016, and took the motions under advisement. For
the reasons explained below, the Court will grant the
defense motions only in part, and grant the plaintiffs’
motion for additional discovery.

App. 39
BACKGROUND
Plaintiffs were employed by defendants as
deckhands aboard the F/V Silver Bullet for the 2013
Bristol Bay (Alaska) salmon season during the months
of June and July. They allege that defendant Hatch
verbally promised them a ten percent share of the
catch. While the value of the catch is estimated at the
time of the vessel’s return, buyers typically pay more
than the estimate, and the crew is entitled to have this
upward “adjustment” added to the value of the catch
for purposes of computing the ultimate share due each
seaman. The plaintiffs allege that defendants failed to
pay them the full amount due by not including the
adjustment in the valuation computation, by falsifying
the value of the catch, and by not providing an accurate
accounting as required by statute.
Both plaintiffs allege that their agreements were
verbal in nature and never reduced to writing.
Defendants originally disputed this for both plaintiffs
but conceded in oral argument that plaintiff Allen had
only a verbal agreement. Defendants continue to allege
that plaintiff Dunn had a written agreement, and have
proffered a contract with Dunn’s signature affixed.
Dunn counters that his signature was forged. Whether
the contracts for hire are in writing or merely verbal
makes a big difference in terms of the remedies
available.
As remedies, plaintiffs seek recovery for (1) wages
equal to the highest crew-share paid out of the port of
engagement; (2) double wage penalties under state law;
(3) punitive damages under the general maritime law;
(4) the sale of the vessel Silver Bullet to satisfy the

App. 40
wages and penalties due to plaintiffs; and (5) attorney
fees.
ANALYSIS
A seaman who is cheated on his wages has three
options. If his contract was not in writing, he can
obtain his wages and, in some instances an additional
sum, pursuant to 46 U.S.C. §§ 106011 and 11107.2 If his
contract was in writing, he has two options. First, he
can proceed in rem, to obtain a lien against – and
ultimately sell – the vessel as provided in 46 U.S.C.
§ 10602(a)3, or he can proceed in personam against his
employer under § 10602(c)4 and receive damages under
general maritime law.

1

Section 10601 states in part as follows: “Before proceeding on a
voyage, the owner . . . of a fishing vessel . . . shall make a fishing
agreement in writing with each seaman employed on board.”

2

Section 11107 states in part as follows: “An engagement of a
seaman contrary to a law of the United States is void. A seaman so
engaged may leave the service of the vessel at any time and is
entitled to recover the highest rate of wages at the port from which
the seaman was engaged or the amount agreed to be given the
seaman at the time of engagement, whichever is higher.”

3

Section 10602(a) states in part as follows: “When fish caught
under an agreement under section 10601 . . . are . . . sold, the
vessel is liable in rem for the wages and shares of the proceeds of
the seamen. An action under this section must be brought within
six months after the sale of the fish.”

4

Section 10602(c) states as follows: “This section does not affect a
common law right of a seaman to bring an action to recover the
seaman’s share of the fish or proceeds.”

App. 41
Plaintiffs are pursuing all of these avenues of relief.
Under each, they seek punitive damages. The
defendants have filed a motion to dismiss arguing that
plaintiffs are not entitled to punitive damages under
any of these three options. The Court will consider each
option and whether plaintiffs are entitled to punitive
damages under that option.
Motion to Dismiss – Punitive Damages for Breach
of an Oral Contract
Defendants seek to dismiss plaintiffs’ claims for
punitive damages and double wages under § 11107.
The Court will use the single phrase “punitive
damages” to refer to (1) punitive damages that are
available under general maritime law, Atlantic
Sounding Co., Inc. v. Townsend, 557 U.S. 404, 411
(2009), and (2) double wage penalties that are available
under various state laws.
Section 11107 contains the remedy due to a seaman
for breach of an oral contract for hire. While plaintiff
Allen is clearly suing under an oral contract, it remains
to be determined whether plaintiff Dunn is proceeding
under a written or oral contract.
Whether the contract was oral or written makes a
difference. To protect seamen, Congress declared under
§ 10601 that all contracts for hire must be in writing.
To add teeth to this requirement, Congress declared in
§ 11107 that an oral contract is void, allowing a
seaman to quit at any time and still be able to “recover
the highest rate of wages at the port from which the
seaman was engaged or the amount agreed to be given
the seaman at the time of engagement, whichever is

App. 42
higher.” In other words, these statutes were designed
to penalize ship owners who failed to offer written
contracts for hire. See Seattle-First Nat. Bank v.
Conway, 98 F. 3d 1195, 1198 (9th Cir. 1996) (agreeing
that “§ 11107 provides a penalty against vessel owners
who employ seamen without written agreements in
violation of § 10601”) (emphasis added).
Plaintiffs seek punitive damages under § 11107. Yet
the statute already provides for a potential penalty by
allowing a seaman to quit early and receive the highest
rate of wages at his port as if he worked for the full
duration of the contract. Punitive damages are not
typically piled onto a statutory recovery that is already
punitive in nature. Priyanto v M/S/ Amsterdam, 2009
WL 1202888 (C.D.Cal. April 30, 2009) (holding that
“[t]o allow the recovery of punitive damages in addition
to this statutory penalty [under the Seaman’s Wage
Act] would permit an unlawful double recovery of
punitive damages for the same act”). This is especially
true where the statute says nothing about punitive
damages generally, is “precisely drawn [and] detailed,”
and was enacted to provide a specific remedy where “no
remedy was previously recognized, or when previous
remedies were problematic. . . .” See Hinck v. U.S., 550
U.S. 501, 506 (2007). In that case, the statutory remedy
becomes exclusive and preempts any remedies
available elsewhere in the law. Id.
Those circumstances exist here. Section 11107 was
“precisely drawn” by Congress to protect seamen from
the “problematic” remedies associated with oral
contracts. Hence, under Hinck, the remedies set forth
in § 11107 are exclusive. That statute says nothing

App. 43
about punitive damages generally, and so any claim by
Allen for punitive damages under § 11107 must be
dismissed. Likewise, if Dunn’s contract is ultimately
found to be oral in nature, his claim for punitive
damages under § 11107 must be dismissed.
Motion to Dismiss – Punitive Damages for Breach
of a Written Contract
If Dunn loses his forgery claim, he will be suing for
breach of a written contract governed by § 10602.
Defendants seek to dismiss his claim for punitive
damages under § 10602.
That statute governs wage claims for seaman suing
on a written contract. It states that the “the vessel is
liable in rem for the wages and shares of the proceeds
of the seamen.” See § 10602(a). That in rem action must
be “brought within six months after the sale of the
fish.” Id. The statute also requires the employer to
“produce an accounting of the sale and division of
proceeds under the agreement” and in the event the
employer fails to do so, “the vessel is liable for the
highest value alleged for the shares.” See § 10602(b)(1).
This statute – like §§ 10601 & 11107 – sets forth a
comprehensive and precisely drawn remedy designed
to protect seaman from being shorted on their wages.
Accordingly, under Hinck’s analysis, § 10602 contains
the exclusive remedy for a seaman proceeding in rem
against the vessel on a breach of written contract
claim. Seattle-First Nat. Bank, 98 F. 3d at 1197 (stating
that § 10602 provides “the exclusive remedy for seamen
with written fishing agreements” proceeding in rem).

App. 44
While § 10602 contains the exclusive remedy for in
rem actions, it also contains a savings clause allowing
in personam actions. Specifically, § 10602(c) states that
“[t]his section does not affect a common law right of a
seaman to bring an action to recover the seaman’s
share of the fish or proceeds.” See § 10602(c). In
interpreting this savings clause, the Ninth Circuit has
held that the common law right it preserves does not
include the right to proceed in rem against the vessel
for unpaid wages when the seaman’s claim is for breach
of a written contract. Fuller v. Golden Age Fisheries, 14
F.3d 1405, 1407-08. The Circuit in Fuller held that
§ 10602 preempts all in rem claims based on a written
contract – at most, Fuller left open a seaman’s right to
proceed in personam against his employer for breach of
the written contract.5 Id.
Plaintiff Dunn argues that (if he loses his forgery
claim) he is proceeding here in personam against his
employer for breach of a written contract. It is
undisputed that plaintiffs’ employer was defendant
Hatch Marine Enterprise LLC. Plaintiffs argue that
they are pursuing an in personam breach of contract
claim against Hatch Marine and are entitled to
punitive damages under general maritime law if
successful on that contract claim.
However, punitive damages are not available under
general maritime law for breach of contract claims.
Gamma-10 Plastics, Inc. v. American President Lines,
Ltd., 32 F.3d 1244, 1257 (8th Cir. 1994); Guevara v.

5

The plaintiffs in Fuller had written contracts and were
proceeding in rem against the vessel.

App. 45
Maritime Overseas Corp., 59 F.3d 1496, 1513 (5th Cir.
1995) (en banc ); Ellenwood v. Exxon Shipping Co., 984
F.2d 1270, 1283-84 (1st Cir.1993); Thyssen, Inc. v. S.S.
Fortune Star, 777 F.2d 57, 62-64 (2d Cir. 1985).
These cases do, however, support a claim for
punitive damages under maritime law for torts. Id.
Here, plaintiffs have alleged the tort of fraud, both in
the concealing of the value of the catch and in the
forgery of Dunn’s signature on the written contract.
While plaintiffs cannot, under general maritime law,
obtain punitive damages for breach of contract, they
can obtain them for the tort of fraud.
Therefore, the Court will grant in part and deny in
part the motion to dismiss the punitive damages
claims. The Court will grant the motion to the extent it
seeks to dismiss punitive damages as a remedy for
plaintiffs’ breach of contract claims under § 11107 (oral
contracts), § 10602 (written contracts & in rem action),
and general maritime law (written contract & in
personam action), but will deny the motion to the
extent it seeks to dismiss punitive damages as a
remedy for the fraud claim.
Motion for Summary Judgment – Statute of
Limitations
Defendants seek summary judgment on the ground
that plaintiffs failed to file their lawsuit within the sixmonth statute of limitations set forth in § 10602. The
statute states that “[a]n action under this section must
be brought within six months after the sale of the fish.”
Plaintiffs filed their lawsuit more than a year after the
fish were sold.

App. 46
The limitations period does not apply to Allen’s
claim – it applies only to claims based on written
contracts. Seattle-First Nat. Bank, 98 F. 3d at 1197. If
Dunn’s claim is ultimately found to be based on a
written contract, it would be dismissed to the degree he
is proceeding in rem under § 10602, unless he can show
that defendants fraudulently concealed the true value
of the catch. See Key Bank of Washington v. F/V
Highland Light, 1995 WL 415296 (W.D.Wash. Feb. 13,
1995). Dunn has alleged that defendants concealed the
value of the catch, an issue that will be discussed
further below.
But proceeding in rem is not Dunn’s only option –
he could also proceed in personam against Hatch
Marine. The defendants do not cite the limitations
period applicable to an in personam action under
general maritime law.
Because questions exist about whether Dunn’s
claim is timely, and because the limitations period
clearly does not apply to Allen’s claim, the Court will
deny the motion for summary judgment to the extent it
is based on the limitations period.
Motion for Summary Judgment – Fraud Claim
Defendants move for summary judgment dismissing
any claim for fraud or forgery. Defendants claim that
forgery is not a cause of action, and that the record
contains no evidence of fraud.
But the record does contain defendant Hatch’s
representation to the Court that Dunn “signed an
employment contract” and that “[t]here was no price
adjustment for the 2013 salmon catch.” See Hatch

App. 47
Affidavit (Dkt. No. 51-2) at ¶¶ 5 & 15. Dunn responds
that Hatch forged his signature, and that he never
signed that contract. See Dunn Declaration (Dkt. No.
54-1). In support, Dunn submitted a report by a
handwriting expert concluding that the signature on
the written contract proffered by defendants was
“artificially reproduced” – essentially copied and pasted
from another contract that Dunn actually did sign. See
Report (Dkt. No. 55-3). In addition, Dunn alleges that
once he told Hatch that he was not returning for the
next year, Hatch told him that “he only paid
[adjustments] to guys who returned for the next year.”
See Dunn Declaration, supra, at p. 2. Dunn also
claimed that in his experience, the buyer in this case
(Leader Creek Fisheries) “customarily” pays an
adjustment. Id.
Dunn is claiming Hatch has lied to him and this
Court about the contract for hire and the adjustment.
These conflicting allegations at least raise questions of
fact.
Defendants argue, however, that the forgery claim
cannot constitute a cause of action. But submitting a
forged document to a court would constitute litigation
fraud, and subject the party submitting the forgery to
sanctions by the court. Sun World, Inc. v. Olivarria,
144 F.R.D. 384 (E.D. Cal. 1992) (court awarded
sanctions to plaintiff after finding defendant fabricated
documents and gave perjured testimony). But
plaintiffs’ are also alleging a more traditional fraud
with their allegations that defendants concealed the
buyer’s payment of an adjustment. So the Court rejects
the argument that the fraud claim is limited to the

App. 48
forgery allegation and that forgery is not a cause of
action.
The defendants raise two additional objections to
the fraud allegations. First, they point out that
plaintiffs’ amended complaint fails to explain this fraud
with the particularity required by Rule 9(b). The Court
agrees. Although plaintiffs’ counsel has explained his
fraud claim with the necessary detail as he has
responded to the defendants’ motions, the fact remains
that plaintiffs’ complaint is completely insufficient.
Plaintiffs are entitled to one opportunity to amend
their complaint to provide the necessary specificity
required by Rule 9(b). See Vess v. Ciba-Geigy Corp.
U.S., 317 F. 3d 1097, 1107 (9th Cir. 2003) (holding that
“leave to amend should be granted if it appears at all
possible that the plaintiff can correct the defect” under
Rule 9(b)).
The defendants’ second objection is that the record
contains no evidence that they concealed an adjustment
or committed any other fraud regarding the value of
the catch. Defendants are correct – the record contains
no such evidence. Plaintiffs have, however, filed a
motion under Rule 56(d) asking for more time to do
discovery on the adjustment issue.
That motion was filed about 3 months after the
discovery period was over. Plaintiffs’ excuse is that
they were not alerted to the issue until April 1, 2016,
when Hatch filed his Declaration in support of his
summary judgment motion denying that any
adjustment had been paid. Up until that time,
plaintiffs were assuming Hatch got an adjustment but
just refused to pay Dunn’s share. See Dunn

App. 49
Declaration, supra, at p. 2 (stating that Hatch told
Dunn “he only paid [adjustments] to guys who returned
for the next year”). Skeptical about Hatch’s denial,
plaintiffs’ counsel served a subpoena duces tecum on
the buyer (Leader Creek Fisheries) for records relating
to the price paid for the salmon and any adjustment,
but the buyer has never responded. See Merriam
Declaration (Dkt. No. 60-2) at ¶ 2. Plaintiffs now seek
additional time to determine from Leader Creek
Fisheries whether any adjustment was paid.
The Court finds good cause to allow this very
narrow discovery, and will therefore grant the Rule
56(d) motion. The Court will grant plaintiffs 30 days to
do discovery limited to whether Leader Creek Fisheries
paid any adjustment to defendants concerning the
salmon catch at issue here.
Motion for Summary Judgment – Bryce Hatch
Individual Liability
Defendants moved for summary judgment on the
claims against Bryce Hatch individually, arguing that
he acted at all times as the owner of defendant Hatch
Marine Enterprise LLC. The plaintiffs did not object,
and the Court will grant the motion for summary
judgment to that extent.
Motion for Summary Judgment – Full Payment
Defendants argue that they have paid the plaintiffs
their full share. But resolution of this issue must await
the discovery on the adjustment. The Court will
therefore deny the motion at this time without
prejudice to the rights of defendants to refile the

App. 50
motion depending on the outcome of the further
discovery.
Motion to Strike
Defendants moved to strike the Declaration of Greg
Smith that was filed by plaintiffs only after all briefing
was completed. Plaintiffs have not explained why they
could not have filed this Declaration in a timely fashion
to allow defendants a fair opportunity to respond. The
Declaration will be struck.
Defendants also seek to strike statements made by
Dunn and Allen regarding what other seamen told
them they received as a crew-share. See Dunn
Declaration, supra (stating that “I know other
similarly-situated deckhands who hired out of Naknek
Alaska and who received a crewshare of between 12%
and 17% for the salmon season”); Allen Declaration,
supra (stating that “12% is not uncommon as the
crewshare for an experienced deckhand similarlysituated out of Naknek Alaska during the salmon
season”). These statements are clearly hearsay, and
plaintiffs have not offered any exception to allow their
admission. The statements will be struck.
Conclusion
The Court will grant the motion to dismiss in part
by dismissing any claim for punitive damages under
maritime law – and wage penalties under state law –
sought under a breach of contract claim brought under
§ 10601, § 11107, and §§ 10602(a), (b) & (c). Plaintiffs
retain, however, their right to seek punitive damages
for fraud if they properly amend their fraud claim as

App. 51
discussed above. The motion to dismiss will be denied
in all other respects.
The Court will grant the motion for summary
judgment to the extent it seeks dismissal of (1) all
claims against Bryce Hatch individually; and (2) the
fraud claim unless plaintiff cures the pleading
insufficiency under Rule 9(b) within 10 days.
The Court will grant the motion to strike the
statements of Dunn and Allen and the Declaration of
Greg Smith, as explained above. The Court will also
grant the motion for additional discovery under Rule
56(d), allowing plaintiffs to do discovery within the
next 30 days limited to (1) the purchase price paid by
Leader Creek Fisheries for the catch at issue here, and
(2) whether Leader Creek Fisheries paid to Hatch any
adjustment concerning the salmon catch at issue here.
When the discovery is completed, the parties shall
contact the Court’s Law Clerk David Metcalf
(dave_metcalf@id.uscourt.gov) about scheduling the
next phase of this litigation.
ORDER
In accordance with the Memorandum Decision
above,
NOW THEREFORE IT IS HEREBY ORDERED,
that the motion to dismiss (docket no. 49) shall be
GRANTED IN PART AND DENIED IN PART as set
forth above.

App. 52
IT IS FURTHER ORDERED, that the motion for
summary judgment (docket no. 50) is GRANTED IN
PART AND DENIED IN PART as set forth above.
IT IS FURTHER ORDERED, that plaintiffs shall
amend their fraud claim to comply with Federal Rule
of Civil Procedure 9(b) within 30 days from the date of
this decision or have the claim dismissed without
further notice.
IT IS FURTHER ORDERED, that the motion for
discovery (docket no. 60) is GRANTED. The plaintiffs
shall be granted 30 days to do discovery limited to
(1) the purchase price paid by Leader Creek Fisheries
for the catch at issue here, and (2) whether Leader
Creek Fisheries paid to Hatch any adjustment
concerning the salmon catch at issue here. When the
discovery is completed, the parties shall contact the
Court’s
Law
Clerk
David
Metcalf
(dave_metcalf@id.uscourt.gov) about scheduling the
next phase of this litigation.
IT IS FURTHER ORDERED, that the motion to
strike the Declaration of Greg Smith (docket no. 62) is
GRANTED.
IT IS FURTHER ORDERED, that the motion to
strike the statements of Dunn and Allen (docket no. 57)
is GRANTED.
DATED: August 2, 2016
[SEAL]

/s/B. Lynn Winmill
B. Lynn Winmill
Chief Judge
United States District Court

App. 53

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35485
D.C. No. 1:15-cv-00479-BLW
District of Idaho, Boise
[Filed January 8, 2020]
_____________________________
ELI DUNN,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
BRYCE HATCH; et al.,
)
)
Defendants-Appellees.
)
_____________________________ )
No. 18-35511
D.C. No. 1:15-cv-00479-BLW
District of Idaho, Boise
_____________________________
ELI DUNN; COLIN ALLEN,
)
)
Plaintiffs-Appellees,
)
)
v.
)
)
BRYCE HATCH; HATCH
)

App. 54
MARINE ENTERPRISE, LLC, )
in personam,
)
)
Defendants-Appellants. )
_____________________________ )
Before: McKEOWN and BYBEE, Circuit Judges, and
GAITAN,* District Judge.
The panel has voted to deny the petitions for panel
rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petitions for panel rehearing and the petition
for rehearing en banc (No. No. 18-35485 Dkt. 47, No.
18-35511 Dkt. 41) are denied.

*

The Honorable Fernando J. Gaitan, Jr., United States District
Judge for the Western District of Missouri, sitting by designation.

App. 55

APPENDIX G
46 U.S. Code § 10601 Fishing Agreements
(a) Before proceeding on a voyage, the owner, charterer,
or managing operator, or a representative thereof,
including the master or individual in charge, of a
fishing vessel, fish processing vessel, or fish tender
vessel shall make a fishing agreement in writing with
each seaman employed on board if the vessel is –
(1)
at least 20 gross tons as measured under section 14502
of this title, or an alternate tonnage measured under
section 14302 of this title as prescribed by the
Secretary under section 14104 of this title; and
(2)
On a voyage from a port in the United States.
(b) The agreement shall(1)
state the period of effectiveness of the agreement;
(2)
include the terms of any wage, share, or other
compensation arrangement peculiar to the fishery in
which the vessel will be engaged during the period of
the agreement; and
(3)
include other agreed terms.
(Pub. L. 100–424, § 6(a), Sept. 9, 1988, 102 Stat.
1591; Pub. L. 104–324, title VII, § 739, Oct. 19,
1996, 110 Stat. 3942; Pub. L. 107–295, title IV,
§ 441(a), (b), Nov. 25, 2002, 116 Stat. 2131.)

App. 56

APPENDIX H
46 U.S. Code § 11107 Unlawful Engagements Void
An engagement of a seaman contrary to a law of the
United States is void. A seaman so engaged may leave
the service of the vessel at any time and is entitled to
recover the highest rate of wages at the port from
which the seaman was engaged or the amount agreed
to be given the seaman at the time of engagement,
whichever is higher.
(Pub. L. 98-89, Aug. 26, 1983, 97 Stat. 580.)

